<html>
<title> - AIRCRAFT ICING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                             AIRCRAFT ICING

=======================================================================

                                (111-89)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           February 24, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
55-054                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
MICHAEL E. McMAHON, New York         HOWARD COBLE, North Carolina
PETER A. DeFAZIO, Oregon             JOHN J. DUNCAN, Jr., Tennessee
ELEANOR HOLMES NORTON, District of   VERNON J. EHLERS, Michigan
Columbia                             FRANK A. LoBIONDO, New Jersey
BOB FILNER, California               JERRY MORAN, Kansas
EDDIE BERNICE JOHNSON, Texas         SAM GRAVES, Missouri
LEONARD L. BOSWELL, Iowa             JOHN BOOZMAN, Arkansas
TIM HOLDEN, Pennsylvania             SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
DANIEL LIPINSKI, Illinois            JIM GERLACH, Pennsylvania
MAZIE K. HIRONO, Hawaii              CHARLES W. DENT, Pennsylvania
HARRY E. MITCHELL, Arizona           CONNIE MACK, Florida
JOHN J. HALL, New York               LYNN A. WESTMORELAND, Georgia
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
LAURA A. RICHARDSON, California      MARY FALLIN, Oklahoma
JOHN A. BOCCIERI, Ohio, Vice Chair   VERN BUCHANAN, Florida
NICK J. RAHALL, II, West Virginia    BRETT GUTHRIE, Kentucky
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
THOMAS S.P. PERRIELLO, Virginia
JOHN GARAMENDI, California
DINA TITUS, Nevada
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Dillingham, Dr. Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office..........................     4
Hersman, Honorable Deborah A.P., Chairman, National 
  Transportation Safety Board....................................     4
Hickey, John, Deputy Associate Administrator for Aviation Safety, 
  Federal Aviation Administration, accompanied by John Duncan, 
  Air Transportation Division Manager, Federal Aviation 
  Administration.................................................     4
Kay, Captain Rory, Executive Air Safety Committee Chairman, Air 
  Line Pilots Association, International.........................     4
Principato, Gregory, President, Airports Council International-
  North America, ACI.............................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    50
Johnson, Hon. Eddie Bernice, of Texas............................    57
Mitchell, Hon. Harry E, of Arizona...............................    60
Oberstar, Hon. James L., of Minnesota............................    61
Richardson, Hon. Laura, of California............................    65

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Dillingham, Dr. Gerald...........................................    68
Hersman, Honorable Deborah A.P...................................    94
Hickey, John.....................................................   121
Kay, Captain Rory................................................   133
Principato, Gregory..............................................   155

                       SUBMISSIONS FOR THE RECORD

Hersman, Honorable Deborah A.P., Chairman, National 
  Transportation Safety Board:...................................
      "NTSB Most Wanted List Transportation Safety Improvments 
        2009-2010," brochure.....................................   115
      "NTSB Safety Alert," fact sheet............................   117
Hickey, John, Deputy Associate Administrator for Aviation Safety, 
  Federal Aviation Administration, accompanied by John Duncan, 
  Air Transportation Division Manager, Federal Aviation 
  Administration, ``Notice of Proposed Rulemaking''..............    14

                        ADDITIONS TO THE RECORD

Aerospace Industries Association of America, Marion C. Blakey, 
  President and Chief Executive Officer, written testimony.......   165

[GRAPHIC] [TIFF OMITTED] T5054.001

[GRAPHIC] [TIFF OMITTED] T5054.002

[GRAPHIC] [TIFF OMITTED] T5054.003

[GRAPHIC] [TIFF OMITTED] T5054.004

[GRAPHIC] [TIFF OMITTED] T5054.005

[GRAPHIC] [TIFF OMITTED] T5054.006

[GRAPHIC] [TIFF OMITTED] T5054.007

[GRAPHIC] [TIFF OMITTED] T5054.008

[GRAPHIC] [TIFF OMITTED] T5054.009

[GRAPHIC] [TIFF OMITTED] T5054.010



                       HEARING ON AIRCRAFT ICING

                              ----------                              


                     Wednesday, February 24, 2010,

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. The 
Subcommittee will ask all Members, staff, and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to receive testimony 
regarding aircraft icing. I intend to give a short opening 
statement, then I will call on the Ranking Member, Mr. Petri, 
for his opening statement or any remarks that he may have.
    I welcome everyone to this Subcommittee hearing on aircraft 
icing.
    In winter weather and at higher altitudes, ice can 
accumulate on an aircraft's wing, tail, and other areas and can 
threaten a pilot's ability to control the aircraft. Current 
regulations with the FAA require that an aircraft has no 
visible ice present on its wings to take off and be certified 
to fly in icing conditions if icing is present at the time of 
takeoff.
    After the 1994 crash of a regional airliner in Roselawn, 
Indiana, which took 68 lives, the National Transportation and 
Safety Board added icing to its safety Most Wanted List in 
1997. Since that time, the Board has issued 82 recommendations 
to the FAA aimed at reducing risks from icing. Thirty-nine were 
implemented by the FAA and acceptable progress was made on 25 
of them.
    Last October, Ranking Member Petri and I held a roundtable 
on icing issues. During the roundtable, we discussed ice 
protection systems to prevent ice from forming on an aircraft 
in flight. These systems may not protect in all icing 
conditions, such as supercooled large droplets. In addition, we 
discussed the current status of aircraft icing standards and 
procedures. Because aviation safety is the number one priority 
of this Subcommittee, we decided to hold a follow-up hearing to 
fully explore these important issues.
    Many challenges exist regarding aircraft icing, such as 
access to accurate weather information and the need for 
additional icing-related research. I would like to focus on the 
issues of pilot training to operate in icing conditions and the 
FAA'S rulemaking efforts.
    First, while the aircraft operator must maintain an FAA-
approved de-icing plan, the pilot is ultimately responsible for 
determining whether the aircraft needs to be de-iced. In 
flight, it is also the pilot's responsibility to deploy the 
aircraft's ice protection system. Currently, icing must be 
covered in a commercial pilot's initial and recurrent training. 
It is critical that this training be specific to the airplane 
the pilot is flying and the conditions the pilot is likely to 
encounter.
    To address these concerns and raise the bar on safety, we 
included important icing-related requirements in H.R. 3371, the 
Airline Safety and Improvement Act of 2009, to ensure 
commercial pilots have the experience and knowledge to fly 
safely in icing conditions.
    I look forward to hearing from the Air Line Pilots 
Association and the FAA on what needs to be done to provide 
pilots with better-defined operating procedures for operations 
in icing and winter weather conditions.
    Second, it has been 13 years since a commercial air carrier 
was involved in a fatal icing-related accident. However, 
between 1998 and 2007 there were 523 icing-related aviation 
accidents involving small commerce operators and general 
aviation aircraft resulting in 221 fatalities.
    Since the Roselawn accident in 1994, the FAA has issued 
over 100 icing-related airworthiness directives on 50 different 
aircraft models, adopted three final rules, and is conducting 
additional research on icing in partnership with NASA.
    Despite the FAA'S work to date, two critical NTSB 
recommendations from the 1997 Most Wanted List have not been 
addressed. Last week, the NTSB adopted its Most Wanted List for 
2010, which includes four recommendations to reduce the hazards 
to aircraft flying in icing conditions. The NTSB said that the 
FAA'S efforts in this area have been ``unacceptably slow,'' and 
I agree.
    The length of time that it has taken to complete these 
icing rules is unacceptable. I understand the deliberative 
nature of the FAA'S rulemaking process, and that even more 
research may be needed in this area. However, 13 years have 
passed since the NTSB made these recommendations to change the 
way aircraft are designed and approved for flight in icing 
conditions and these recommendations are still open with 
unacceptable responses. The FAA must adopt a systematic and 
proactive approach to address the icing criteria for aircraft 
certification and testing. I look forward to hearing from Mr. 
Hickey on the steps the agency is taking to finish the icing-
related rules as soon as possible.
    I am also interested to hear from the GAO on research I 
requested regarding icing and any recommendations it may have 
on the topic.
    Before I recognize Mr. Petri for his opening statement, I 
ask unanimous consent to allow two weeks for all Members to 
revise and extend their remarks and to permit submission of 
additional statements and materials by Members and witnesses. 
Without objection, so ordered.
    The Chair now recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Well, thank you, Mr. Chairman, for calling this 
hearing as a follow-up to the Subcommittee roundtable on in-
flight and ground icing issues last fall.
    At the roundtable, we learned about the long-awaited 
revisions to the icing safety regulations, as well as the 
challenges associated with promulgating these regulations. I am 
interested in getting an update from the FAA on the status of 
the regulatory safety improvements.
    Roundtable participants also noted that, more often than 
not, pilots navigate through icy conditions without incident. 
It is noted, however, that the ability to routinely deal with 
icing conditions can lead to a sense of complacency about the 
dangers that icing can pose. I would like to hear from the Air 
Line Pilots representative what steps unions are taking to 
instill continued vigilance in the cockpit.
    In addition to addressing the in-flight icing hazards, the 
FAA, airports, and airlines all work hard to ensure that 
aircraft are ready to fly and that airport runways are 
maintained in a safe condition.
    The Environmental Protection Agency has recently proposed a 
new rule to regulate runoff of aircraft de-icing fluid and 
runway de-icing agents. It is a conflict here between 
environmental concerns and aviation concerns, and we clearly 
have to be sure that we are not endangering people's lives as 
they fly.
    I am interested to learn what impacts the proposed rule 
would have on airports and passengers. Obviously, there must be 
a careful balance between regulating de-icing fluids and 
ensuring the safety and efficient movement of passengers and 
commerce. It is this Subcommittee's responsibility to ensure 
that a balance is maintained.
    While airliners are required to be equipped with icing 
countermeasures, most general aviation and commuter aircraft 
are not. When these aircraft inadvertently encounter icing 
conditions, the outcome can be disastrous. For years we have 
heard testimony about the potential capacity and efficiency 
benefits of NextGen. The Chairman took the Committee to the 
research center in New Jersey recently for an update on some of 
the efforts that are being made in this area. But I am 
interested to hear how the enhanced weather information touted 
in NextGen plans might affect the icing safety record.
    Thank all of you for your participation in this hearing 
today, and I look forward to your testimony. Thank you very 
much.
    Mr. Costello. The Chair thanks the Ranking Member and will 
recognize Members. Does anyone have an opening statement or 
remarks they would like to add?
    [No response.]
    Mr. Costello. If not, the Chair will go directly to our 
witnesses today. Let me introduce our witnesses.
    First we have Mr. John Hickey, who is the Deputy Associate 
Administrator for the FAA for Aviation Safety. He is 
accompanied by Mr. John Duncan, who is the Air Transportation 
Division Manager for Flight Standards Division at the FAA. The 
Honorable Deborah Hersman, who is the Chairman of the National 
Transportation Safety Board; Dr. Gerald Dillingham, who is 
Director of Physical Infrastructure Issues with the U.S. 
Government Accountability Office; Captain Rory Kay, the 
Executive Air Safety Committee Chairman for the Air Line Pilots 
Association, International; and Mr. Gregory Principato, who is 
the President of the Airports Council International-North 
America.
    Let me welcome all of our witnesses here today. We normally 
have a five minute rule that we try to ask witnesses to 
summarize their testimony in a five minute period. We want all 
of our witnesses to know that their entire statements will be 
entered into the record. We understand that Chairman Hersman 
has a PowerPoint that she will be presenting at some point and 
we, of course, look forward to that.
    With that, the Chair would recognize Mr. Hickey.

 TESTIMONY OF JOHN HICKEY, DEPUTY ASSOCIATE ADMINISTRATOR FOR 
 AVIATION SAFETY, FEDERAL AVIATION ADMINISTRATION, ACCOMPANIED 
 BY JOHN DUNCAN, AIR TRANSPORTATION DIVISION MANAGER, FEDERAL 
 AVIATION ADMINISTRATION; THE HONORABLE DEBORAH A.P. HERSMAN, 
  CHAIRMAN, NATIONAL TRANSPORTATION SAFETY BOARD; DR. GERALD 
  DILLINGHAM, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. 
 GOVERNMENT ACCOUNTABILITY OFFICE; CAPTAIN RORY KAY, EXECUTIVE 
  AIR SAFETY COMMITTEE CHAIRMAN, AIR LINE PILOTS ASSOCIATION, 
  INTERNATIONAL; AND GREGORY PRINCIPATO, PRESIDENT, AIRPORTS 
            COUNCIL INTERNATIONAL-NORTH AMERICA, ACI

    Mr. Hickey. Thank you, Chairman Costello, Ranking Member 
Petri, and Members of the Subcommittee.
    Thank you for inviting me here today to discuss the 
challenges icing conditions pose to flight operations, as well 
as FAA'S efforts to mitigate the safety risks posed by icing. 
Before I begin my prepared remarks, I want to introduce my 
colleague, Mr. John Duncan, FAA'S Manager of the FAA Flight 
Standards Air Transportation Division, who is accompanying me 
today.
    The timing of this hearing is particularly appropriate in 
light of the recent reminder that a snow storm can have a 
crippling effect on ground operations. But while the 
accumulation of more than two feet of snow in the Washington 
area was uncommon, aircraft operations in icing conditions are 
not. In fact, the conditions that can result in in-flight 
aircraft icing are extremely common and can occur at any time 
of the year.
    Because icing conditions are so common, we take the icing 
threat very seriously, aggressively mitigating newly understood 
or discovered risks through immediate requirements for specific 
aircraft and advisory material for operators. Once a potential 
risk is addressed, we can focus our attention on conducting 
additional research to understand the science behind complex 
icing phenomena and developing comprehensive flight-wide 
solutions without compromising safety in the interim.
    While the institutional standards set by our rulemaking are 
a cornerstone of our safety oversight regime, many appear to 
measure the safety of the existing fleet solely by our 
rulemaking process. This measure, however, creates a 
misperception about the standards we have set and the level of 
safety we have achieved for the existing fleet.
    FAA has a myriad of tools available to intercede when 
safety risks are identified. For example, we address immediate 
icing safety concerns through the use of airworthiness 
directives, or ADs, which carry the same force as a regulation. 
We have the authority to issue an AD if we determine that some 
aspect of flying in icing conditions on a particular airplane 
model creates an unsafe condition. We have been extremely 
aggressive in issuing ADs when needed, issuing over 200 icing-
related ADs on over 50 different aircraft models covering 
safety issues ranging from design changes to crew operating 
procedures.
    We also issue guidance to operators to ensure that even if 
a design change is not appropriate for their particular 
aircraft, that they have the information to make optimal 
decisions about icing operations. In addition, the FAA safety 
team publishes winter operations guidance and information on an 
annual basis.
    These are just some of the examples of tools that we use to 
ensure the safety of aircraft operations while our research, 
development, and general rulemaking take an appropriate, 
measured and deliberative attack.
    I also want to clarify another misperception about our 
icing program and, in particular, the supercooled large 
droplet, or SLD, rulemaking, the misperception that somehow we 
had the answers early on but failed to act. As I attempted to 
explain at the icing roundtable this Subcommittee invited me to 
last October, and again in my follow-up correspondence, in 
order to understand SLD, we first had to gather, then analyze 
enough data to understand in-flight SLD icing conditions. At 
the roundtable it was suggested that the FAA completed its SLD 
research in the year 2000 but failed to undertake timely 
rulemaking. Unfortunately, I was unable to clarify that mis-
impression then, but I would like to do so now.
    In February 1999, the FAA had gathered sufficient SLD raw 
data to move forward. The data was then analyzed by NASA and 
Environment Canada. This analysis was not complete until 
October 2001. Using this data, the ARAC's icing group worked to 
define the range of conditions in which we believe SLD 
conditions can occur, what we call the SLD icing envelope. 
Although they completed the majority, but not all, of the work 
to define the SLD icing envelope in December 2002 and continued 
to tune their findings on into 2003, we had yet to determine 
the technical solutions that would allow aircraft to continue 
safe operations in SLD.
    The development of technical solutions included 
determinations of how aircraft designers and manufacturers 
could comply with these solutions, as well as test for 
compliance. The ARAC issued its first report in 2005, but the 
report was revised three times over the next four years as we 
continued to learn more about SLD and develop potential 
solutions. After the ARAC's third report, we had enough detail, 
advice, and direction to move forward with rulemaking, and we 
did just that, and today I can tell you that this rulemaking is 
now in final executive coordination.
    I would like to conclude by highlighting the fact that the 
number of accidents attributed to the icing environment has 
been declining year after year for the last 13 years. Although 
our work is ongoing, the reduction in the number of accidents 
attributed to icing is a strong indicator that our actions have 
increased the level of safety.
    This concludes my prepared remarks, and I would be happy to 
answer any questions you may have.
    Mr. Costello. The Chair thanks you, Mr. Hickey, and now 
recognizes Chairman Hersman.
    Ms. Hersman. Good afternoon.
    In-flight icing is a serious ongoing safety concern and has 
been on our Most Wanted List since 1997. The watershed accident 
that generated many of our recommendations was the 1994 
accident of an American Eagle ATR 72 in Roselawn, Indiana, due 
to in-flight icing. The airplane was equipped with a system of 
de-ice boots designed to remove accumulated ice from the 
leading edge of the wing; however, the accident flight flew 
through clouds that contained supercooled large droplets for 
which the ice protection system was not designed. Large water 
droplets caused ice to accumulate behind the de-ice boots which 
could not be removed. The ice accumulation disrupted the 
airflow in front of the ailerons, causing loss of roll control 
in the airplane.
    This animation shows the aircraft motion and control 
surfaces and the pilot's control wheel based on information 
obtained from the flight data recorder. When the flaps, 
highlighted in yellow, were retracted, the loss of control was 
initiated. Soon afterwards, the ailerons, highlighted in red, 
moved uncommanded to their maximum position as a result of the 
airflow disruption. The airplane lost roll control and entered 
a steep dive from which it did not recover, despite control 
inputs from the crew. Although this animation is rather old, 
the issues identified in the investigation are still open.
    Supercooled large droplets, or SLD, is not a typical icing 
encounter, but it needs to be considered in certification. NTSB 
investigations and industry research have demonstrated that SLD 
can cause serious aerodynamic problems. It can accrete aft of 
the protected surfaces and can cause stall or control problems 
at a much higher airspeed than expected. In addition, flight 
crews may not recognize an unsafe condition and take 
appropriate and timely action.
    Since the Roselawn accident, there have been other fatal 
accidents involving in-flight icing which have generated 
additional recommendations. The 1997 Comair accident in Monroe, 
Michigan, was a Part 121 fatal icing accident. Other accidents 
involving Part 135 or 91 operators have experienced in-flight 
icing and resulted in fatal accidents. This photo is of a 2005 
Circuit City Part 91 corporate flight that encountered SLD and 
resulted in eight fatalities.
    The Safety Board has issued broad recommendations about 
icing, but we have also issued type-specific recommendations 
when we identify a unique safety issue. For example, we have 
issued seven recommendations regarding Cessna 208 Caravans 
following numerous in-flight accidents and incidents.
    The Safety Board is also concerned about serious incidents 
that have occurred in icing conditions but have not resulted in 
fatalities or injuries. These precursor events include ones 
like the loss of control event involving Comair aircraft near 
West Palm Beach that resulted in a 7,500 foot altitude loss and 
structural damage.
    Some incidents have involved encounters with SLDs, such as 
the event where an aircraft lost 5,000 feet and was nearly 
inverted, but the crew managed to recover the aircraft without 
injuries and substantial damage.
    This photo shows an example of an Air Ambulance flight that 
experienced a loss of control due to ice on the wings during 
landing and resulted in structural damage to the aircraft wing.
    Currently, the NTSB has 15 open recommendations regarding 
in-flight icing. Of these, four comprise the icing issue on our 
Most Wanted List. The Safety Board is concerned about the slow 
pace of the FAA'S response to these recommendations.
    The FAA has already made several regulatory and advisory 
changes that respond to some of our open recommendations. These 
consist of airworthiness directives addressing operational 
procedures to detect and exit severe icing and de-ice boot 
operation in icing conditions. Recently, the FAA has issued 
final rules regarding aircraft certification for flight in 
icing conditions and ice protection operation for Part 25 
airplanes. Additionally, an NPRM for in-service airplane de-ice 
boot operation was issued in 2009. These are all positive 
safety improvements that address the intent of our safety 
recommendations.
    However, the FAA has not yet adequately addressed three key 
safety areas more than a decade after the recommendations were 
issued, including consideration of SLD in certification, 
applying these revised standards to all airplanes currently 
certificated for flight in icing conditions, and requiring de-
ice boot equipped airplanes to operate de-ice boots as soon as 
the airplane enters icing conditions.
    This concludes my presentation and I would be pleased to 
answer questions.
    Mr. Costello. The Chair thanks you, Chairman Hersman, and 
now recognizes Dr. Dillingham.
    Mr. Dillingham. Thank you, Mr. Chairman, Congressman Petri, 
Members of the Subcommittee. Today I will present preliminary 
information from a study that we have underway for this 
Subcommittee, the full T&I Committee, and the Senate Commerce 
Science and Transportation Committee.
    GAO was asked to provide the Committees with information in 
three areas: first, the extent to which aircraft have been 
involved in accidents and incidents related to icing and winter 
weather operations; second, the nature and extent of FAA and 
other aviation stakeholders' efforts to improve safety; and, 
third, the issues that should be the focus of future efforts to 
improve safety in icing and winter operating conditions.
    Regarding the scope of the problem. Overall, during the 
last 12 years, there have been only six icing-related accidents 
involving large commercial aircraft in the United States. None 
of these were fatal. During that same period there were 
slightly more than 500 icing-and winter-related accidents 
involving small commercial aircraft and general aviation. These 
accidents resulted in slightly more than 200 fatalities, the 
overwhelming majority of which involved privately operated and 
GA-type aircraft.
    As accident data for the last several years clearly shows, 
very few large commercial aircraft are involved in icing-
related accidents. Yet, incident data shows that aircraft icing 
and winter weather operations remain a significant safety risk. 
According to some aviation experts, aviation incidents are 
potential indicators or precursors of aviation accidents.
    FAA'S incident database contains about 200 reports of 
icing-related incidents involving large commercial carriers 
between 1998 and 2007. In addition, the anonymous aviation 
reporting system that is managed by NASA includes over 600 
icing-related incident reports for large commercial carriers 
for that same time period. This database includes reports by 
pilots, controllers, ground personnel, and others. These 
reports cite a variety of safety issues, including problems 
related to runways contaminated by snow or ice, ground de-icing 
problems, and in-flight icing encounters.
    This brings us to our second issue, namely, the nature and 
the extent of efforts by aviation stakeholders to improve 
safety in icing and other winter operating conditions. In our 
written statement we identify a wide range of activities and 
initiatives that aviation stakeholders have undertaken. FAA has 
developed standards, rules and regulations, and monitored 
airlines' compliance with them.
    In addition, FAA has supported research and development, 
much of it in partnership with NASA and with the private 
sector. FAA has also provided over $200 million in airport 
improvement program funding for airport de-icing facilities and 
equipment.
    Aircraft manufacturers continue to increase the 
sophistication of their aircraft and their operation 
capabilities in icing and winter weather through automation and 
redundancies in safety systems. Airlines, pilots, and ground 
personnel continue to meet various types of initial and 
recurrent training requirements. These training requirements 
are increasingly being met through the use of simulators which 
incorporate sophisticated technologies that can represent a 
wide range of conditions.
    Despite these efforts and progress, the focus going forward 
needs to be on continuous improvement to further mitigate the 
safety risks associated with icing and winter weather 
operations. Our work has identified five areas in which 
continued efforts could reduce risk and improve safety.
    First, FAA needs to continue its current efforts to improve 
the timeliness and efficiency of the rulemaking process, 
including the completion of longstanding icing-related 
rulemakings; second, adequate resources are needed to support 
rulemaking and form the basis of technological improvements; 
third, FAA and airlines must ensure that the training pilots 
receive is thorough, relevant, and realistic. For example, 
pilots who are assigned to fly missions in different geographic 
areas may face unfamiliar winter area conditions and may need 
region-specific training beyond initial and recurring training 
to cover their missions and prepare them for those conditions.
    Fourth, more timely and accurate weather information is 
critical to reducing safety risks associated with winter 
weather operations. Finally, FAA recognizes that icing and 
winter weather operations is a multidimensional issue and is 
working to develop an integrated oversight approach. This 
initiative could be expedited.
    Mr. Chairman, if further issues arise from this hearing or 
otherwise, GAO stands ready to further assist the Subcommittee 
with its work in this area. Thank you, Mr. Chairman.
    Mr. Costello. Thank you, Dr. Dillingham.
    The Chair now recognizes Captain Kay.
    Mr. Kay. Good afternoon and thank you for inviting ALPA to 
testify before this Committee.
    Over the span of 79 years, ALPA has been a part of nearly 
every significant safety and security improvement in the 
airline industry. Today we run the largest non-governmental 
aviation safety organization in the world.
    Professional airline pilots fly a vast range of aircraft 
types in all sorts of weather conditions, including icing. ALPA 
has long been an advocate for improving aircraft operations in 
icing conditions, both in the air and on the ground, primarily 
because of the guesswork still inherent in these procedures. 
Allow me to explain.
    When pilots fly into icing conditions, all they truly know 
is that they are in a situation that may be hazardous. With 
little more than experience as a guide, pilots must attempt to 
determine exactly the conditions in which they are flying, 
evaluate if their aircraft is designed to handle those 
conditions, and to determine what actions to take to safely 
continue the flight.
    Making such critical decisions is not unusual for an 
airline pilot, but in this environment pilots still face the 
dilemma of making that decision without defined parameters for 
operating in icing conditions or without the information they 
need to properly determine the risk. The bottom line is that 
our pilots need to know, in real-time and with certainty, what 
type of icing conditions they are entering, what effects the 
icing is having on the specific aircraft they are flying, and 
how to avoid areas of severe icing altogether.
    While the airline industry has made some progress in this 
area, the variable nature of icing makes establishing norms and 
limits for standard operations difficult but, nevertheless, 
critical. Icing guidance to pilots is frequently general in 
nature and inconsistent from airline to airline. I have 
included examples of this in my written testimony.
    Manufacturers' flight testing evaluate specific sets of 
conditions, but cannot duplicate every possible situation that 
may be encountered in actual operations. In daily service, 
pilots must fill in the information divide between icing, 
flight conditions tested during development, and the actual 
conditions that they encounter. ALPA continues its call for 
more comprehensive certification methods that require either 
additional testing or better simulations of icing conditions 
that set clear limitations on icing operations. The evaluation 
of these conditions should occur in the design and 
certification process, not on a revenue flight.
    In reality, a pilot's own training and flight experience in 
icing may be the primary or even the only means of determining 
how a specific aircraft's flight handling characteristics might 
deteriorate in icing. Therefore, ALPA strongly believes that 
airliners should be equipped with the means to provide pilots 
with specific information about the type of icing and the rate 
of accumulation. These systems would not only alert the flight 
crew, but, when supported with robust procedural guidance, 
would clearly define the actions needed to maintain a safe 
level of operation.
    While consistent standards and technology upgrades would 
improve safety in icing tremendously, we must also consider the 
need for technologies that allow pilots to avoid entering 
hazardous icing conditions in the first place. Similar to 
avoiding thunderstorms, pilots need a combination of onboard 
equipment, training, judgment, and weather forecasting 
technologies to navigate around severe icing areas.
    There is limited use, largely experimental, of these 
technologies, and manufacturers are developing updated products 
that deliver real-time weather information to pilots in the 
cockpit. ALPA strongly supports the adoption of these tools and 
urges the FAA to encourage broader use of new weather 
forecasting technologies to improve the safety of airliner 
operations.
    Arming pilots with the hard data they need to make critical 
informed decisions will dramatically improve operations in 
icing conditions. With proper standards and procedures in 
place, we can take the guesswork out and help to keep this 
industry safe.
    Thank you.
    Mr. Costello. The Chair thanks you, Captain Kay, and now 
recognizes Mr. Principato.
    Mr. Principato. Chairman Costello, Congressman Petri, 
Members of the Subcommittee, on behalf of all the members of 
Airports Council International-North America, thank you for 
allowing me to testify this afternoon.
    First, let me discuss the difference between airplane de-
icing and airfield de-icing. Airplane de-icing, of course, is 
conducted to ensure that critical aerodynamic surfaces are free 
of contaminant that can compromise flight performance, while 
airfield de-icing is conducted to improve the quality of runway 
surface conditions and ensure adequate airplane braking 
performance on snow and ice-contaminated surfaces. Airplane de-
icing is performed by airlines or their handling agents to 
ensure compliance with FAA regulations. Although airports play 
a role in assisting airlines, the primary responsibility for 
this de-icing lies with the individual airlines.
    Maintaining runway and airfield pavement surfaces in safe 
conditions and reporting on the conditions is the 
responsibility of airport operators under FAA requirements. 
Airfield pavement de-icing has become a critically important 
tool for safe airplane operations during winter storms. If this 
was not done, snow and ice removal would be significant slower, 
potentially resulting in more delayed and diverted flights.
    Snow removal procedures at airports require significant 
coordination between airport operations personnel, airlines, 
fixed-based operators, FAA air traffic control, and other 
concerned parties, which is why airport snow removal plans are 
developed far in advance of the winter storm season. To give 
some sense of the level of effort involved, during a typical 
snowstorm, one large northeastern airport uses a crew of 30 
people, 11 multi-function units costing $800,000 a piece, two 
large runway brooms, five 27-foot pusher plows, four rollover 
plows, 10 4500 tons per hour snow blowers--which could have 
been used on my street a couple of weeks ago--and various 
front-end loaders and miscellaneous equipment to clear 4.6 
million square feet of runway and 5.7 million square feet of 
non-tenant apron. That is just at one northeastern airport.
    Even though the airlines are responsible for airplane de-
icing, airport operators are often the permit holders for 
stormwater discharge, meaning that airports are responsible for 
the collection and recycling of stormwater runoff. Airplane de-
icing operations and the collection of runoff vary from airport 
to airport. Some airports use centralized de-icing pads, which 
are like car washes, for all de-icing efforts. At other 
airports, de-icing takes place at the gate; at others on 
taxiways or cargo aprons. Regardless, airports have runoff 
collection procedures and are required to comply with local, 
State, and Federal requirements.
    In August, the EPA issued a proposed rule for de-icing 
discharges. ACI-North America has great concerns with the 
proposal, including the negative impact it will have on 
airfield ground operations and efficiency, without any real 
safety benefit.
    Members of the Subcommittee, I want to make it clear that 
airports follow all Clean Water Act requirements with regard to 
the collection of stormwater runoff. We are committed to high 
environmental standards, even though we may disagree with the 
particulars of EPA'S current proposal. On Friday we expect to 
submit substantial comments to the EPA that will address our 
concerns, as well as offer possible alternatives that should be 
considered. I will send a copy of our comments to the Committee 
and work with the staff on this issue.
    On a final note, allow me once again to thank you for your 
efforts to get an FAA Reauthorization bill passed and signed 
into law. We can all agree that eight is enough; eight 
extensions are enough. We estimate that if the EPA, for 
example, were to finalize this rule, it would cost the airport 
industry alone hundreds of millions of dollars. Without an 
increase in the Passenger Facility Charge limit, like the one 
you proposed in H.R. 915, I really don't know how we will 
finally comply with that regulation.
    Again, thank you, and I look forward to your questions and 
to working with you on this important issue.
    Mr. Costello. The Chair thanks you and I am told early this 
afternoon that Senator Reid has said that they intend to take 
up the reauthorization bill sometime during the month of March. 
So I hope that is true. We have heard that before and it didn't 
hold, but we are hopeful.
    Let me begin by asking Chairman Hersman just a few 
questions about the icing recommendations on the 2010 Most 
Wanted Safety List. One, what qualifies a recommendation to be 
included on the list? In other words, why did you choose to put 
the specific items on the Most Wanted List this year, as 
opposed to some other items that could have been included?
    Ms. Hersman. Chairman Costello, are you asking about all of 
the items or just the icing ones?
    Mr. Costello. The icing ones.
    Ms. Hersman. Just the icing ones? On our Most Wanted List 
there is an icing issue area that contains four 
recommendations. Those are the recommendations that we think 
are proceeding too slowly, or are most important, or may 
deserve some special attention; by putting them on our Most 
Wanted List we could push for action on those issues. So we use 
our Most Wanted List to highlight the things that we think have 
the widest safety benefit. Clearly, there are many issues that 
could be on the Most Wanted List, including many icing 
recommendations, but these are the four that we think are the 
most important.
    Mr. Costello. Second question. I take it from your 
testimony that you believe that the FAA currently has the 
necessary research to revise the way aircraft are designed and 
approved for flight in icing conditions. Do you believe that 
they have the necessary research available?
    Ms. Hersman. Yes, we do. We understand when we first issued 
these recommendations that some research may have needed to be 
conducted. We think the research that FAA and NASA conducted is 
good, sound research. I think the challenge here is there is 
always more that could be learned or more that could be done, 
but at some point they have to pull the trigger and make the 
decision to move ahead with these rulemaking activities.
    We haven't even gotten to the point where we have seen a 
Notice of Proposed Rulemaking. It has been 13 years since we 
issued the recommendations. We know that the rulemaking process 
will take many more years before it is completed, so we believe 
that it is proceeding too slowly and they need to move forward.
    Mr. Costello. Dr. Dillingham, the same question for you. Do 
you believe that the FAA has the necessary research at this 
point?
    Mr. Dillingham. Chairman, it is hard for us to say whether 
they have the necessary research. We certainly, in the course 
of doing our work, have talked to NASA and to FAA, and they 
indicate that the research that was needed, at least early on, 
has been completed. And we followed up to try and understand 
what was taking so long at this point in time, and we are still 
trying to get clarity on that once they said they have the 
research they need.
    Mr. Costello. You would agree with Chairman Hersman, 
though, that you can continue to research forever; at some 
point in time you have to pull the trigger. Are you comfortable 
at this point with the research that has been done by the FAA 
and NASA that they need to move forward and do rulemaking?
    Mr. Dillingham. Yes, sir, I agree with the Chairman that 
you can always learn more, and at a certain point it is 
necessary to go forward.
    Mr. Costello. Mr. Hickey, would you respond to Chairman 
Hersman's comments about the research that is available, and 
Dr. Dillingham's comments as well?
    Mr. Hickey. Yes, Mr. Chairman. First of all, let me say I 
empathize and actually agree with all the comments made 
regarding the length of time on rulemaking. For those of us in 
the FAA and any other agency that are involved in rulemaking, 
we understand the frustration all of us have on the length of 
time. In the case of SLD, we have pulled the trigger on 
rulemaking. We have initiated rulemaking; we are in the process 
of doing that.
    I perhaps may respectfully disagree with Chairman Hersman 
about when we were ready to pull the trigger on the research 
data. While we had some of the raw data early on, it is not 
sufficient with that data to turn it into a regulation such 
that designers can comply with the proper envelope, like the 
long-established Appendix C. So I think we have taken the time 
to get that.
    But what is very important to understand is if you reflect 
back on my opening remarks, what gives us or affords us the 
opportunity to get it right on the rule is the actions we have 
taken as part of the 200 airworthiness directives. General 
rulemaking is largely an institutionalizing of actions already 
taken by the agency, and I think we are not accurately gaging 
the actual level of safety even without the SLD rule. I think 
we have to account for all the ADs that we have issued, and it 
provides for a very safe environment for airplanes to avoid SLD 
conditions.
    Mr. Costello. When do you expect to issue a final rule or 
set of rules addressing the hazards of SLDs?
    Mr. Hickey. As I mentioned earlier, Mr. Chairman, our 
Notice of Proposed Rulemaking is going through final executive 
coordination. We are anticipating that to be published this 
spring, and I think the normal congressional mandate is to have 
it 16 months after the close of comment period, so I would be 
looking at late 2011.
    Mr. Costello. Mr. Hickey, as you will recall, you sent me a 
letter on November the 16th of 2009 and you indicated, to that 
same question, that it would be done in January of 2010, and 
you are saying now that it is late this year?
    Mr. Hickey. Mr. Chairman, if I could respectfully disagree. 
I believe my comments in that roundtable were the spring of 
2010.
    Mr. Costello. When?
    Mr. Hickey. The spring of 2010, sir.
    Mr. Costello. We will find the exact date. It says January 
2010 on your time chart here. It says January 2010 anticipate 
publication of the SLD rule.
    Mr. Hickey. I will go back and make sure we supply it for 
the record, sir.
    Mr. Costello. And you are saying that now, instead of 
January 2010, you are talking late this year, 2010?
    Mr. Hickey. No, I am not, sir. I am suggesting the spring 
of 2010. It has left the agency; it is in executive 
coordination right now.
    Mr. Costello. So in April or May of this year we should 
anticipate that.
    Mr. Hickey. Or partly June.
     [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T5054.132
    
    [GRAPHIC] [TIFF OMITTED] T5054.133
    
    [GRAPHIC] [TIFF OMITTED] T5054.134
    
    [GRAPHIC] [TIFF OMITTED] T5054.135
    
    [GRAPHIC] [TIFF OMITTED] T5054.136
    
    [GRAPHIC] [TIFF OMITTED] T5054.137
    
    [GRAPHIC] [TIFF OMITTED] T5054.138
    
    [GRAPHIC] [TIFF OMITTED] T5054.139
    
    [GRAPHIC] [TIFF OMITTED] T5054.140
    
    [GRAPHIC] [TIFF OMITTED] T5054.141
    
    [GRAPHIC] [TIFF OMITTED] T5054.142
    
    [GRAPHIC] [TIFF OMITTED] T5054.143
    
    [GRAPHIC] [TIFF OMITTED] T5054.144
    
    [GRAPHIC] [TIFF OMITTED] T5054.145
    
    [GRAPHIC] [TIFF OMITTED] T5054.146
    
    [GRAPHIC] [TIFF OMITTED] T5054.147
    
    [GRAPHIC] [TIFF OMITTED] T5054.148
    
    [GRAPHIC] [TIFF OMITTED] T5054.149
    
    [GRAPHIC] [TIFF OMITTED] T5054.150
    
    [GRAPHIC] [TIFF OMITTED] T5054.151
    
    [GRAPHIC] [TIFF OMITTED] T5054.152
    
    [GRAPHIC] [TIFF OMITTED] T5054.153
    
    [GRAPHIC] [TIFF OMITTED] T5054.154
    
    [GRAPHIC] [TIFF OMITTED] T5054.155
    
    Mr. Costello. I have a few other questions, but at this 
time I have taken a lot of time. I will recognize the Ranking 
Member for any questions he might have.
    Mr. Petri. Thank you very much, Mr. Chairman. I do have a 
couple of questions, one of Dr. Dillingham.
    One of the factors that we have heard as a key contributing 
element involving accidents and incidents related to icing with 
GA, but also larger carriers, has to do with the availability 
and quality of weather information, and it might be general, 
but very specifically in different areas. To your knowledge, 
can we expect any improvements in the situation so far as 
operable information about air conditions through the 
implementation of NextGen?
    Mr. Dillingham. Mr. Petri, it is our understanding, based 
on the work that we are doing for this Subcommittee, as well as 
others, focusing on NextGen, that, indeed, weather and 
providing better, more accurate, more timely weather 
information is a critical component of NextGen. As you know, 
for flights in general, or schedules in general, up to 70 
percent of sort of delays and cancellations and diversions are 
associated with weather, so it is our understanding that better 
weather information is a key part of the development of 
NextGen.
    Mr. Petri. Thank you. We were up at the research center and 
it was my impression that there may be technology already, but 
that each plane may be a little reporting station on the 
conditions of the space that it is going through, and that 
could be fed into the system. While that technology may already 
exist, if it is a separate deployment, it is more expensive 
than if it is part of a NextGen system, and that clearly could 
give people an extra margin of safety because they could avoid 
particular--they already do that, but this would be that many 
more streams of information that each pilot would have and the 
system would have available to it.
    Mr. Dillingham. Yes, sir.
    Mr. Petri. I do wonder if Mr. Principato could expand a 
little bit for us here. You indicated there is this EPA 
rulemaking process going forward and it is of great concern and 
it is important to get it right. If it is not done right, the 
airport operators' hands can be tied and it could have a lot of 
implications for costs and for--they just have to be safe--so 
for the flights that can go forward, because you might not be 
able to de-ice.
    Could you expand on that and what your solutions are? I 
know you said you have a written statement for us, but just to 
highlight how you can solve this problem, if you can, or what 
we need to do to deal with the balance between the environment 
and the need to de-ice these things?
    Mr. Principato. Sure. Well, let me begin by saying again 
that certainly airports comply with all local, Federal, and 
State requirements, including the Clean Water Act, so we are 
doing that, and we are always looking for ways of doing a 
better job of mitigating environmental impacts. So we certainly 
share the EPA'S goals of improving the environmental 
performance.
    The concerns we really have--and the comments are being 
finalized; they are due on Friday. We will work with the staff 
here and share them with the staff and the Members of the 
Subcommittee.
    But the main concerns we have I guess are in a couple of 
areas. Number one, if you look at Denver and you look at 
LaGuardia, Denver is an airport with a footprint of 54 square 
miles; LaGuardia is an airport with a footprint of about a 
footprint, it is not much more than that. We are concerned that 
the rule would treat those two airports in too much of an 
identical manner, that it doesn't fully take into account the 
differences in airports, whether the size differences or some 
of the other things.
    And I have used Denver and LaGuardia, I keep coming back to 
that. If you look at those two airports and see the differences 
in those places, we believe the rule does not adequately take 
some of those differences into account with regard to how 
aircraft would have to be de-iced and what would have to be 
done with the runoff and so forth. So we are going to bring 
some suggestions on dealing with that.
    Our second concern is we don't believe that the cost 
estimates and the rule adequately take into account the 
operational costs of the rule, whether it is the operation of 
the airport, whether it is the operation of the aircraft out 
there on the airfield. We think it will lead to a lot of 
inefficiencies and so forth and add to the cost without the 
environmental benefit that you might add, may or may not add 
could be added for a much lower cost.
    So those two things: it doesn't adequately take into 
account the differences in the airport--and keep thinking 
Denver and LaGuardia in your mind as two large hub airports 
that are very different--and the need to take fully into 
account the operational costs and efficiencies when 
implementing a rule that maybe doesn't take into account the 
differences in airports.
    Mr. Costello. The Chair thanks Mr. Petri and now recognizes 
the gentleman from Iowa, Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman, for having this 
hearing.
    This has been a tough winter. Captain Kay and maybe Mr. 
Principato would say something about it. But are there de-icing 
operations in general? Obviously, there are various 
intensities, the bigger airports you mentioned, but do we have 
enough equipment out there to do what we need to do?
    Mr. Kay. I would answer that in the affirmative. On a 
personal note, I tend to operate at larger airports around the 
Country. I have been very impressed with the way the airports 
have managed the runway clearance and the aircraft de-icing, 
and from members of my association who are operating at the 
smaller ones, they concur with that as well. There has been a 
large improvement in the way that winter hazards and operations 
have been dealt with by the airports and by the airlines and 
the subcontractors.
    Mr. Boswell. Just a curiosity. How long does that de-icing 
last? You get de-iced at the gate and you can go to taxi and 
wait in line. What is your time element? I realize there are 
variables, but what is kind of the ballpark you are looking at?
    Mr. Kay. That is very much size-dependent on the aircraft. 
A small regional aircraft might be de-iced in four or five 
minutes, perhaps; and a large wide-body airline could be 15 to 
20 minutes. So, obviously, the shorter the gap between 
completing the de-icing and the aircraft being at the end of 
the runway is optimal, so it is preferable in many cases not to 
do the de-icing at the gate, but to do it at a remote pad near 
the operating runway.
    Mr. Boswell. That is what I was leading up to. Those pads 
sometimes are right at the gate or they come to the airplane 
before you push back, and so on. I am just wondering what your 
thoughts were on that.
    Thank you, Mr. Chairman. I yield back.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I apologize to you and 
Mr. Petri and the panel for my belated arrival; I had another 
meeting. I am sorry I came in late.
    Mr. Hickey, I am going to amplify my ignorance with this 
question. Define supercooled large droplets for me. And comment 
on them, if you will.
    Mr. Hickey. Well, supercooled large droplets are in some 
ways what the word large means, they are very, very large 
droplets, larger size than we have previously assumed was very 
typical in icing conditions; and when they form they sometimes 
form on the airplane and freeze and create ice shapes beyond 
what most airplanes or a number of airplanes are certified to 
handle. So they ultimately create a shape on the wing which 
changes the fundamental ability of the wing to provide lift and 
speed.
    Mr. Coble. And no doubt present a greater hazard or threat?
    Mr. Hickey. Yes, sir, it is a greater hazard and threat 
than our current certification standards. But I would like to 
advice that it is a very rare event. Our information is it 
happens or occurs less than one percent of the time.
    Mr. Coble. Thank you, sir.
    Ms. Hersman, is the NTSB satisfied with the FAA'S progress 
in addressing aircraft icing issues?
    Ms. Hersman. No, Congressman Coble, and that is one of the 
reasons why we placed it on our Most Wanted List of 
Transportation Safety Improvements. We have an icing issue 
area, and we believe that the FAA needs to take action on three 
specific recommendations. One is to expand the certification 
envelope to include SLD.
    And, Reshan, if you could pull that slide up for us to show 
the SLD conditions.
    The second recommendation is to make sure the certification 
standards apply to all aircraft in service. The third 
recommendation is to make sure whenever aircraft enter icing 
conditions, if they have pneumatic de-ice boots, that they 
activate them and operate them continuously.
    A tool that airmen can use to look at icing conditions; is 
a SIP. You will see the areas in red indicate--and I have also 
provided a little handout. This is current, this is real-time 
and this is live. This is the SLD threat, the areas shaded in 
red. So you will see, yes, there are some in the northeast, but 
there are also some off the coast of Florida.
    So while SLD is considered to be a rare event--99 times out 
of 100 an icing event, may not be SLD--but, if you are on the 
aircraft that is that one out of 100 that is getting into SLD, 
you want to make sure the aircraft is certified for those 
conditions and that the pilots know what to do.
    Mr. Coble. Thank you.
    Dr. Dillingham, how might emerging EPA regulations on the 
use icing countermeasures at airports affect airline 
operations?
    Mr. Dillingham. Mr. Coble, as was just discussed, this is a 
pending regulation for handling runoff from de-icing so that it 
could have all kinds of effects depending on how the rule is 
finally implemented and what the regulations are. It could cost 
airports additional funds to develop the proper facilities to 
do this and to take care of the runoff; it could in fact slow 
down and also increase delays with regard to traffic moving, as 
well.
    So until we know what the final rule is, it is hard to tell 
what all the implications are, but certainly those airports 
that don't currently have the facilities to handle runoff will 
have to find a way to do that.
    Mr. Coble. Thank you, sir.
    Mr. Chairman, could I have one more question? I see the red 
light is on. Thank you.
    Captain Kay, you may have touched on this with the 
gentleman from Iowa, but let me put this to you. It was noted 
at this fall's roundtable on aircraft icing that the ability to 
routinely deal with icing conditions could lead to a sense of 
complacency about the dangers that icing can pose. A, do you 
agree with that analysis? And, B, what steps are the unions or 
anybody taking to instill continued and continuous vigilance in 
the cockpit?
    Mr. Kay. Thank you for the question. I cannot agree that 
the word complacency can be used in the same sentence as icing; 
it is surely one of the greatest hazards we face airborne. 
Three basic levels of icing, whether it is light, moderate, or 
severe; and, obviously, the second and third modes are ones 
that we do not want to be dealing with.
    So we want to know where that icing is; we want to know its 
severity and its rate of accumulation. I don't think anybody 
involved in winter operations really has any business getting 
complacent at all. Meteorology is a very inexact science, so 
you are dealing with variables all day and nightlong.
    With the association, my association takes this issue very, 
very seriously. We are looking forward to a rule coming out on 
icing, but our biggest concern is training of the pilots. Right 
now, we want to have the best possible training available. I 
have spoken about this on other areas in aviation. I am deeply 
concerned about the reduced training footprints that airlines 
are now applying to their pilots, whether it is as ab initio, 
when they first join an airline or go to a new plane, or 
whether it is recurrent training.
    I am deeply concerned about how much we have chipped away 
at what gets discussed when a pilot shows up in a training 
center. So this would be very much high on my list for pushing 
better and great training and having a greater awareness of 
what it is we are dealing with when we are getting airborne.
    Also, I work also as a check airman. I give simulated 
checks to pilots, and I am very pleased with just how much we 
can get a synthetic simulator sitting in a hot, dry room to 
replicate poor weather conditions. We can simulate many things 
for a pilot to deal with, but nothing beats good training and 
good fundamental understanding in the fist place of what the 
hazard is.
    Mr. Coble. I thank you, sir, and I thank you all for being 
with us.
    Thank you, Mr. Chairman. I yield back.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Michigan, Mr. Schauer.
    Mr. Schauer. Thank you, Mr. Chairman.
    Thank you all for your testimony.
    Captain Kay, I am glad you just spoke about training. I am 
from Battle Creek, Michigan. Western Michigan University's 
College of Aviation is located there in my district at Kellogg 
Airport. It sounds like, from your comments, there is a certain 
amount of art, as well as science, and maybe what that really 
means is experience, and experience and training really matter.
    So I was going to ask you to talk a little bit more about 
the tools that pilots need to make those critical decisions. 
You comment that those tools haven't yet been fully developed. 
Can you talk about that and what we need to do to develop those 
tools and how those can be incorporated into training?
    Mr. Kay. Very much so. I have quite a long shopping list, 
so I will try and keep it short. I would like to have that 
picture that was up on the wall there just now in my cockpit as 
a starting point. I don't have access to--that one right there. 
What we have access to in our cockpits is very limited. We have 
pictures like this available to us in a preflight planning 
scenario, but once we are airborne, we are relying on fairly 
sparse amounts of information coming our way.
    Taking a turbo prop airliner, for example, onboard 
equipment consists of an icing detector on many of these 
aircraft and it gives me one simple message: ice. I mean, it is 
on or it is off; it doesn't give me any idea about how it is 
accreting on the aircraft, whether it is icing that is just 
forming along the leading edge of the wing, which is 
undesirable, but not horrible, or whether it is supercooled 
water droplets that are flowing back across the airfore, and 
those are a huge problem for us. Those are the ones that really 
start to impact us flying.
    So I want information. I want training in the first place, 
as we have talked about, especially at that ab initio stage, 
but in the plane, in the operation, I want all the technologies 
available to me to allow me to make the best possible 
decisions. I don't want to wait until I am in that weather and 
I am becoming a test pilot and my passengers behind me are 
becoming passengers along for that ride.
    So information is what we need. We need the basic education 
in the first place, how to apply procedures that are laid out 
for us through the FAA and through the companies and the 
manufacturers. But once we are actually in the operation, we 
need to keep that information flow coming.
    Curiously enough, a lot of time the best information I get 
is from an airplane ahead of me, a pilot report. That means he 
is in it and he doesn't like it because he is making a pilot 
report, but he is concerned enough that it needs to be passed 
back. That is what I want to stop. I don't want to see us 
having to get into this moderate or severe icing to the point 
where we are concerned enough we need to pass it back. I would 
like to find a day where we can avoid that altogether.
    Mr. Schauer. Thank you. It sounds like technology is a 
major area of exploration and research. I don't know if the 
technology exists to do what you are suggesting or whether it 
just needs to be incorporated on the aircraft.
    Mr. Kay. The technology is evolving, but it would give me 
some better onboard information without having to rely on other 
aircraft making pilot reports. But I am very big on the basic 
education. When a pilot decides to be a pilot, that there is a 
level playing field of information that is being required for a 
pilot to participate and learn on and take that on and help 
build his or her experience that way.
    Mr. Schauer. I am going to ask a final question. I am 
running out of time, but given that this aviation college in my 
district is in a northern climate, there may be training 
opportunities there. They are flying year-round, probably 360 
days a year or so in all conditions, so there may be some 
opportunities, and they are training pilots for commercial 
aviation.
    Are there limits to communications to folks on the ground 
to talk about weather conditions, to provide that information 
to pilots?
    Mr. Kay. Once you are airborne, there are essentially two 
groups of people that you are dealing with in an aircraft, one 
is your dispatcher back on the ground, your company dispatcher, 
part of whose job it is--it is a shared responsibility to the 
safe conduct of that flight; and once they are aware of 
hazardous weather conditions, they obviously have to pass that 
along to us. And then, of course, is the air traffic controller 
and the information they have in front of them.
    When they are trying to get a bottleneck set of aircraft 
out of Florida in a very tight amount of airspace, they have 
very little room to deal with. So there are competing interests 
there about dealing with hazardous and the routing around it. 
But I would certainly like to see better coordination with our 
air traffic controllers so they have a better understanding of 
aircraft performance limitations as well.
    Your district in the northern climes of this Country are 
particularly well suited to good all-weather flying education. 
I think that is a huge bonus, to be able to go up and get 
actual experience in guarded conditions.
    Mr. Schauer. Thank you.
    I yield back.
    Mr. Costello. The Chair thanks the gentleman.
    Mr. Hickey, to follow up on Captain Kay's point, you also 
stress in your testimony the importance of ensuring that pilots 
understand the procedures they should follow when they 
encounter in-flight icing, and you go on to expand. I guess my 
question is what has the FAA done to, number one, ensure that 
commercial pilots receive proper training especially regarding 
SLDs and, number two, to provide pilots with updated icing 
information?
    Mr. Hickey. Mr. Chairman, I am going to ask my colleague, 
Mr. Duncan, to answer that.
    Mr. Duncan. Mr. Chairman, let me start by saying that 
training is a cumulative thing for pilots; it starts at the 
private pilot level, particularly in regard to dealing with the 
meteorological conditions, including icing, and it progresses 
through the commercial pilot certificate, through an instrument 
rating, through an airline transport pilot certificate.
    By the time they get to an air carrier, they are dealing 
with specific meteorological conditions that deal with the 
environment that they are going to be operating in, as well as 
the specifics of requirements and procedures of the carrier 
that they are working with, as well as the specifics related to 
the type of aircraft that they are flying.
    In terms of tools available to them, the chart that you 
just saw is one of the tools that has been developed over time, 
and we are still working on additional tools. I will say also 
that in some GA aircraft that SIP chart is available in flight, 
along with a lot of other weather information like that.
    We also agree that this is a continuous improvement 
process, and we are fully engaged in continuing to improve the 
tools that are available. We talked about NextGen and what is 
planned in NextGen a few minutes ago.
    Mr. Costello. Anyone on the panel like to make a comment to 
follow up on FAA requirements? Captain Kay?
    Mr. Kay. When the NextGen evolves to the point where it is 
fully implemented, I am looking forward to a time where we know 
precisely what conditions we are dealing with before we ever 
leave the ground, bearing in mind that a lot of that weather is 
moving at 80 to 100 miles an hour eastbound, so it is quite a 
trick to be able to come up with a good routing on that.
    I talked about the ice light in a turbo prop earlier on, 
and I probably should have gone on to point out what a large 
jet such as I fly has in the way of ice detection, and that is 
essentially nothing. I can't see behind my arms when I am 
sitting in the cockpit of a plane; I can't even see my wings. I 
can't just take a walk back and look at my wings and see if 
they are icing up.
    So we have procedures. If we fly into cloud, we look at 
what the total air temperature is and we switch on our engine 
anti-icing and our wing anti-icing. But if we are trying to 
determine how much ice we are getting, we very scientifically 
lean forward and look at the windshield wiper blade, and there 
is a big bolt that holds that onto the rest of the airplane, 
and that is my very scientific device for the moment for 
telling me how much I am getting and how fast it is accreting. 
So we spend a lot of time studying that windshield wiper bolt, 
so I think we can do better than that.
    Mr. Costello. The Chair now recognizes the gentlelady from 
California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    Ms. Hersman, first of all, I think you got the lucky draw, 
from what I can tell, of coming to our Committee versus the one 
down the hall, so we are glad that you are here. I thought it 
was interesting, when Captain Kay was talking about his not 
having this type of information readily available during 
flight, you kind of looked over.
    I am a little surprised. Why would you say that they would 
not have access? I could see that preflight, as a person is 
preparing information, but clearly if a flight is five hours, 
four hours, a lot can change from when you are doing your 
preflight operation to when you are actually flying. So why 
would we not have this information available for our pilots 
real-time? It is my understanding many of them have laptops, 
different means to be able to collect this information.
    Ms. Hersman. I would say that it is probably limited by 
whatever technology is available in the aircraft. The Safety 
Board has made many recommendations to the FAA over the years 
about having better, more current information. In fact, we just 
made recommendations in the Colgan investigation, even though 
that was not considered an icing accident.
    We found that the crew in that accident did not have 
current information about icing that was provided to them by 
their dispatch. We think it is important for airmen to have 
information before they get into the cockpit, to make sure that 
information is understandable, and that it is not part of a 40-
page packet that is confusing and hard to find important 
information.
    As far as having in-flight information, we think that is 
very important, too. This information comes from other pilot 
reports, but, as Captain Kay pointed out, if you are the first 
pilot to go into that area, you may not get that information. 
How helpful that information is to you is also dependent on the 
size of your aircraft. If Captain Kay is going in and he is 
flying a 747 through the same cloud that I am going to be going 
through with a small turbo prop, he might have light to 
moderate icing, while my experience might be moderate to severe 
icing just because of the size of my aircraft. So it is a 
challenge. Our recommendations focus on making sure that the 
aircraft is certified to operate in all icing conditions and 
that the pilots know how to handle it or exit when they 
encounter it.
    Ms. Richardson. But didn't Mr. Kay just testify that he may 
not always know at what point, the soonest point that he would 
need to do that?
    Ms. Hersman. And we agree. We think it is very challenging.
    Ms. Richardson. So then if he agrees, then doesn't the 
question go back to you that if he may not necessarily know at 
what point to activate it and someone else has the information, 
why aren't you ensuring that the FAA is in fact putting the 
systems in place to ensure that they know?
    Ms. Hersman. Maybe you want to ask the FAA that question.
    Ms. Richardson. Well, but with you being the Safety Board, 
if there is one thing that I think we are learning through the 
process is, isn't your role that, from a basic of safety, to 
ensure that if things are not safe--and in this instance of 
what we are referring, it actually costs lives--don't you also 
have a responsibility to urge more than just the 
recommendations? Or to say something to this Committee or----
    Ms. Hersman. The Congress has charged us with investigating 
accidents and making recommendations. We have issued 
recommendations. That is one of the reasons why our Most Wanted 
List has icing on it, because we believe this issue does need 
to be addressed.
    Ms. Richardson. Okay, so what happens in--if you could just 
sum up, and then I am going to ask Mr. Hickey. But at what 
point, if it is not being addressed, do you step forward in a 
more aggressive fashion to ensure that whatever means, if it is 
the FAA is not implementing it, do you come to Congress for 
oversight? At some point maybe you have to do a little bit 
more, and I think in this instance it was probably--it would 
have been more helpful.
    Ms. Hersman. You have our reauthorization in front of you 
right now. If you think there are things that we need to do--I 
know that people get frustrated because our recommendations 
don't require change. We make the recommendations; it is up to 
others to implement them. Using our Most Wanted List to 
highlight issues and certainly testifying before this Committee 
are ways to advance those issues. You all have in fact been the 
ones to require our recommendations to be implemented when we 
have not met with success.
    Ms. Richardson. Okay.
    So, Mr. Hickey--and I am now down to 26 seconds--do you 
view that the recommendations from the NTSB is just kind of 
paper that you have there, or at what point, when we see that 
this is a serious problem, what gets you guys to the point to 
actually do something?
    Mr. Hickey. Ma'am, we take NTSB recommendations very 
seriously.
    Ms. Richardson. Right. But in this case there have been 
recommendations and they were not in fact implemented.
    Mr. Hickey. They may not be implemented yet. I think a lot 
of what we are talking about now could be enhanced by advanced 
technology that are really on the cusp; it is coming down the 
road.
    Ms. Richardson. So do you guys have a commitment to 
implement this technology in light of what has happened?
    Mr. Hickey. I don't know at this point, ma'am. I can get 
back for the record.
    Ms. Richardson. Okay.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from Michigan, Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I am sorry I was 
delayed by other meetings.
    I have always been very interested in this subject as a, I 
hesitate to call myself a pilot even though I learned how to 
fly at one point, but you can consider me a would-be pilot in 
that I read most of the aviation magazines. Lots of articles on 
icing. I have never encountered it because I am a weakling, I 
don't like to go outdoors when it is that cold, even though I 
live in Michigan.
    But just a few questions just from observing and flying 
twice weekly, at a minimum, in commercial airliners. I have 
always thought that the de-icing procedures at the airports are 
really quite inefficient, and they have improved quite a bit in 
the last few years in the process, but, Mr. Principato, maybe 
you can give me some idea.
    Would it make sense to just, at the end of the runway, have 
essentially what looks like a carwash that sprays the de-icing 
fluid down? You just keep recirculating it until it reaches a 
point where it is ineffective. Rather than--and I am asking 
this in the context of what the EPA is concerned about and the 
additional expense that could cause. It would be much better.
    You recall the horrible accidents that occurred right here 
in Washington, D.C. some years ago where the plane was de-iced. 
It took so long to take off that he should have been de-iced 
again but wasn't, and crashed into the river.
    It seems to me the best place to de-ice is right at the end 
of the runway, before the plane enters the runway. So, is that 
an impossibility, to have a system like that, or would it be 
too expensive or what?
    Mr. Principato. Well, I think, as Captain Kay had said 
earlier in response to a question, in which he, I think, 
testified that the current procedures that he and his 
colleagues go through with their aircraft actually works very 
well at airports large and small. It obviously is optimal to 
take off as soon as possible after you are de-iced. There are 
places where you can put a de-icing pad closer to the runway 
geographically. There are places where that just doesn't make 
any sense for geographic reasons or whatever.
    Think about--I said earlier to some of your colleagues, if 
you think about Denver and LaGuardia, both large hub airports, 
very, very different. Denver has the de-icing pads, you go out 
and do it and go out and take off; and at LaGuardia you don't 
have the footprint for that kind of thing, so you have to come 
up with a different approach. And, obviously, your own State of 
Michigan, with which I am well familiar, you have Lansing and 
Grand Rapids and Kalamazoo and Detroit and Flint and all the 
airports that are up there--Battle Creek--all the airports that 
are up there are all very different.
    So I think the airports working with the airlines and 
everybody else tries to find the best, most efficient way to 
get this done in the safest manner possible so that the 
aircraft can get off the ground as quickly as possible after it 
is de-iced; and then, of course, back on the ground, the 
airport operator living up to its environmental commitments and 
dealing with the runoff and so forth.
    But as I said before, there are some places where it makes 
sense to put it out in the remote area like that on the way to 
the runway; there are some places where it just doesn't, and 
you have to find another way. I think airports and airlines 
have worked pretty well together on that. But, again, think of 
Denver and LaGuardia in your mind as you are looking at two 
places where you have to do things differently.
    Mr. Ehlers. Okay. I am not quite sure I follow that, but I 
will take your judgment, since you are the one who pays much of 
the bill, or your members do.
    This note I have here on there that the EPA is badly 
underestimating the cost of the pre-proposed de-icing. What is 
the figure you come up with?
    Mr. Principato. Our comments will be submitted on Friday, 
and we can work with you and your staff on that. Our concern, 
again, is that they are looking at--they are assuming what you 
are able to do in Denver with a lot of area and so forth would 
be just as cost-efficient to do at a lot of other places where 
it just wouldn't be. We also think that they are not really 
taking fully into account the operational costs of some of 
these new requirements.
    So we want to work with them to try to find a way to, at 
the end of the day, improve the environmental performance. We 
are not just going to go in and say no; we are going to have 
some suggestions and alternatives that we are working up, and 
we will be sitting down with them on. But we are concerned that 
they are badly underestimating the cost. I don't think they are 
really counting the operational costs at all in what they are 
looking at doing, and I think they are making assumptions based 
on what has happened at places like Denver, where you have a 
lot more options; and then, as I said before, you look at other 
airports where you don't have so many options and it is more 
costly to do some of these things.
    Mr. Ehlers. Quick question for Captain Kay. You mentioned 
the difficulty determining whether ice is building up on the 
plane. What about when the plane is sitting on the ground? Is 
there any way to detect how much of a problem there is on the 
wings at that point?
    Mr. Kay. That is a good question. I will try to keep the 
answer short. When I am sitting at the gate, obviously, before 
any procedure has begun on the aircraft, you can see what you 
are dealing with and the operator will plan accordingly as to 
what level of de-icing, followed by anti-icing fluid, is 
applied. On a sunny morning, when there has been frost all 
night long, it is pretty straightforward at the gate; you can 
just spray de-icing fluid just as you would on your car 
windshield, and then you are good to go. There is no 
precipitation falling; we are not worrying about anything re-
forming there.
    The big issue becomes when you are dealing with continuous 
snow or other freezing precipitation falling, and that is when 
you have to apply what is referred to as an anti-icing fluid; 
it is called Type 1 for the de-icing and Type 4 for the anti-
icing. And that is when it gets a little bit more problematic 
because you now are looking at an equation as to how hard the 
snow is falling and possibly re-accumulating.
    Once what is called the holdover time is finished, you buy 
some time when you put this anti-icing fluid on, this Type 4 
anti-icing fluid, and it depends on the temperature and the 
precipitation that is falling, and we go into a little what is 
called a holdover chart to determine, once they are finished 
the de-icing, how long we have before we need to be airborne.
    We have to determine, before we get airborne, if that fluid 
has failed, failed to do its job, so we will do a visual 
inspection prior to takeoff. It is not very scientific. It is 
not very scientific at all. You look at the wing and try to 
determine that you still have a clean wing surface, and I would 
like that there be better science of trying to determine if 
that fluid is really still doing its job. That is a concern, 
yes.
    Mr. Ehlers. Thank you very much.
    Mr. Costello. The Chair thanks the gentleman and would 
advise Members that we have votes pending on the Floor and only 
just a few minutes left. I thank the gentleman from Michigan.
    The gentlelady from California had a very quick question 
and a brief answer from our witness.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Kay, in your testimony you stated that the captain's 
authority to fly or not fly in icing conditions is supported 
fully by some airlines and less so by others.
    Mr. Hickey, I wanted to get your opinion. Whose authority 
is it to determine?
    Mr. Hickey. The pilot in command, ma'am.
    Ms. Richardson. Okay. And do you get the impression that 
all the pilots feel that way or understand that?
    Mr. Hickey. I will ask Mr. Duncan, who has previous 
experience.
    Mr. Duncan. Ultimately, it is the responsibility of the 
pilot in command. There are a number of--every air carrier has 
different procedures for dealing with that question, and----
    Ms. Richardson. So since votes have been called and since 
you have a pilot here who says in his testimony that is not 
necessarily consistent, are you willing to commit to this 
Committee that you will reevaluate how the pilots are 
communicated that that is ultimately their authority and what 
they can do in this case?
    Mr. Duncan. We in fact are constantly looking at those 
kinds of questions in the oversight that we do.
    Ms. Richardson. Thank you.
    Mr. Costello. The Chair thanks the gentlelady and thanks 
all of our witnesses. I think it is worth noting that the FAA, 
on their Fact Sheet concerning the issue of flying in icing 
conditions from February 13th of last year, just updated their 
Fact Sheet during this hearing.
    Let me thank our witnesses for appearing here today. I 
think it has been a very informative hearing. I will say to our 
friends at the FAA, that we will continue to follow up on this 
issue to make certain that action is in fact taken.
    As I said, Mr. Hickey, I would refer you back to the letter 
that you sent me on November the 16th and the time line, it was 
January of 2010 and now it is the spring. So I would just ask 
that you do everything you possibly can internally to move the 
process along.
    Again, I thank all of our witnesses and the Subcommittee 
stands adjourned. Thank you.
    [Whereupon, at 3:27 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5054.011
    
    [GRAPHIC] [TIFF OMITTED] T5054.012
    
    [GRAPHIC] [TIFF OMITTED] T5054.013
    
    [GRAPHIC] [TIFF OMITTED] T5054.014
    
    [GRAPHIC] [TIFF OMITTED] T5054.015
    
    [GRAPHIC] [TIFF OMITTED] T5054.016
    
    [GRAPHIC] [TIFF OMITTED] T5054.017
    
    [GRAPHIC] [TIFF OMITTED] T5054.018
    
    [GRAPHIC] [TIFF OMITTED] T5054.019
    
    [GRAPHIC] [TIFF OMITTED] T5054.020
    
    [GRAPHIC] [TIFF OMITTED] T5054.021
    
    [GRAPHIC] [TIFF OMITTED] T5054.022
    
    [GRAPHIC] [TIFF OMITTED] T5054.023
    
    [GRAPHIC] [TIFF OMITTED] T5054.024
    
    [GRAPHIC] [TIFF OMITTED] T5054.025
    
    [GRAPHIC] [TIFF OMITTED] T5054.026
    
    [GRAPHIC] [TIFF OMITTED] T5054.027
    
    [GRAPHIC] [TIFF OMITTED] T5054.028
    
    [GRAPHIC] [TIFF OMITTED] T5054.029
    
    [GRAPHIC] [TIFF OMITTED] T5054.030
    
    [GRAPHIC] [TIFF OMITTED] T5054.031
    
    [GRAPHIC] [TIFF OMITTED] T5054.032
    
    [GRAPHIC] [TIFF OMITTED] T5054.033
    
    [GRAPHIC] [TIFF OMITTED] T5054.034
    
    [GRAPHIC] [TIFF OMITTED] T5054.035
    
    [GRAPHIC] [TIFF OMITTED] T5054.036
    
    [GRAPHIC] [TIFF OMITTED] T5054.037
    
    [GRAPHIC] [TIFF OMITTED] T5054.038
    
    [GRAPHIC] [TIFF OMITTED] T5054.039
    
    [GRAPHIC] [TIFF OMITTED] T5054.040
    
    [GRAPHIC] [TIFF OMITTED] T5054.041
    
    [GRAPHIC] [TIFF OMITTED] T5054.042
    
    [GRAPHIC] [TIFF OMITTED] T5054.043
    
    [GRAPHIC] [TIFF OMITTED] T5054.044
    
    [GRAPHIC] [TIFF OMITTED] T5054.045
    
    [GRAPHIC] [TIFF OMITTED] T5054.046
    
    [GRAPHIC] [TIFF OMITTED] T5054.047
    
    [GRAPHIC] [TIFF OMITTED] T5054.048
    
    [GRAPHIC] [TIFF OMITTED] T5054.049
    
    [GRAPHIC] [TIFF OMITTED] T5054.050
    
    [GRAPHIC] [TIFF OMITTED] T5054.051
    
    [GRAPHIC] [TIFF OMITTED] T5054.052
    
    [GRAPHIC] [TIFF OMITTED] T5054.053
    
    [GRAPHIC] [TIFF OMITTED] T5054.054
    
    [GRAPHIC] [TIFF OMITTED] T5054.055
    
    [GRAPHIC] [TIFF OMITTED] T5054.056
    
    [GRAPHIC] [TIFF OMITTED] T5054.057
    
    [GRAPHIC] [TIFF OMITTED] T5054.058
    
    [GRAPHIC] [TIFF OMITTED] T5054.059
    
    [GRAPHIC] [TIFF OMITTED] T5054.060
    
    [GRAPHIC] [TIFF OMITTED] T5054.061
    
    [GRAPHIC] [TIFF OMITTED] T5054.062
    
    [GRAPHIC] [TIFF OMITTED] T5054.063
    
    [GRAPHIC] [TIFF OMITTED] T5054.064
    
    [GRAPHIC] [TIFF OMITTED] T5054.065
    
    [GRAPHIC] [TIFF OMITTED] T5054.066
    
    [GRAPHIC] [TIFF OMITTED] T5054.067
    
    [GRAPHIC] [TIFF OMITTED] T5054.068
    
    [GRAPHIC] [TIFF OMITTED] T5054.069
    
    [GRAPHIC] [TIFF OMITTED] T5054.070
    
    [GRAPHIC] [TIFF OMITTED] T5054.071
    
    [GRAPHIC] [TIFF OMITTED] T5054.072
    
    [GRAPHIC] [TIFF OMITTED] T5054.073
    
    [GRAPHIC] [TIFF OMITTED] T5054.074
    
    [GRAPHIC] [TIFF OMITTED] T5054.075
    
    [GRAPHIC] [TIFF OMITTED] T5054.076
    
    [GRAPHIC] [TIFF OMITTED] T5054.077
    
    [GRAPHIC] [TIFF OMITTED] T5054.078
    
    [GRAPHIC] [TIFF OMITTED] T5054.079
    
    [GRAPHIC] [TIFF OMITTED] T5054.080
    
    [GRAPHIC] [TIFF OMITTED] T5054.081
    
    [GRAPHIC] [TIFF OMITTED] T5054.082
    
    [GRAPHIC] [TIFF OMITTED] T5054.083
    
    [GRAPHIC] [TIFF OMITTED] T5054.084
    
    [GRAPHIC] [TIFF OMITTED] T5054.085
    
    [GRAPHIC] [TIFF OMITTED] T5054.086
    
    [GRAPHIC] [TIFF OMITTED] T5054.087
    
    [GRAPHIC] [TIFF OMITTED] T5054.088
    
    [GRAPHIC] [TIFF OMITTED] T5054.089
    
    [GRAPHIC] [TIFF OMITTED] T5054.090
    
    [GRAPHIC] [TIFF OMITTED] T5054.091
    
    [GRAPHIC] [TIFF OMITTED] T5054.092
    
    [GRAPHIC] [TIFF OMITTED] T5054.093
    
    [GRAPHIC] [TIFF OMITTED] T5054.094
    
    [GRAPHIC] [TIFF OMITTED] T5054.095
    
    [GRAPHIC] [TIFF OMITTED] T5054.096
    
    [GRAPHIC] [TIFF OMITTED] T5054.097
    
    [GRAPHIC] [TIFF OMITTED] T5054.098
    
    [GRAPHIC] [TIFF OMITTED] T5054.099
    
    [GRAPHIC] [TIFF OMITTED] T5054.100
    
    [GRAPHIC] [TIFF OMITTED] T5054.101
    
    [GRAPHIC] [TIFF OMITTED] T5054.102
    
    [GRAPHIC] [TIFF OMITTED] T5054.103
    
    [GRAPHIC] [TIFF OMITTED] T5054.104
    
    [GRAPHIC] [TIFF OMITTED] T5054.105
    
    [GRAPHIC] [TIFF OMITTED] T5054.106
    
    [GRAPHIC] [TIFF OMITTED] T5054.107
    
    [GRAPHIC] [TIFF OMITTED] T5054.108
    
    [GRAPHIC] [TIFF OMITTED] T5054.109
    
    [GRAPHIC] [TIFF OMITTED] T5054.110
    
    [GRAPHIC] [TIFF OMITTED] T5054.111
    
    [GRAPHIC] [TIFF OMITTED] T5054.112
    
    [GRAPHIC] [TIFF OMITTED] T5054.113
    
    [GRAPHIC] [TIFF OMITTED] T5054.114
    
    [GRAPHIC] [TIFF OMITTED] T5054.115
    
    [GRAPHIC] [TIFF OMITTED] T5054.116
    
    [GRAPHIC] [TIFF OMITTED] T5054.117
    
    [GRAPHIC] [TIFF OMITTED] T5054.118
    
    [GRAPHIC] [TIFF OMITTED] T5054.119
    
    [GRAPHIC] [TIFF OMITTED] T5054.120
    
    [GRAPHIC] [TIFF OMITTED] T5054.121
    
    [GRAPHIC] [TIFF OMITTED] T5054.122
    
    [GRAPHIC] [TIFF OMITTED] T5054.123
    
    [GRAPHIC] [TIFF OMITTED] T5054.124
    
    [GRAPHIC] [TIFF OMITTED] T5054.125
    
    [GRAPHIC] [TIFF OMITTED] T5054.126
    
    [GRAPHIC] [TIFF OMITTED] T5054.127
    
    [GRAPHIC] [TIFF OMITTED] T5054.128
    
    [GRAPHIC] [TIFF OMITTED] T5054.129
    
    [GRAPHIC] [TIFF OMITTED] T5054.130
    
    [GRAPHIC] [TIFF OMITTED] T5054.131
    
                                    

</pre></body></html>
